OIG Investigative Reports, Desiree Dean Kirn Lambert and Bernard John Lambert, Jr. Plead Guilty in U.S. Federal Court
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
NEWS RELEASE
FOR IMMEDIATE RELEASE:
Thursday, October 19, 2006
U.S. Department of Justice
WILLIAM W. MERCER
United States Attorney
District of Montana
P.O. Box 1478
Billings, MT 59103
Contact:
Kurt Alme, Assistant U.S. Attorney for the
District of Montana
(406) 247-4669
Desiree Dean Kirn Lambert and Bernard John Lambert, Jr. Plead Guilty in U.S. Federal Court
Bill Mercer, United States Attorney for the District of Montana, announced
today that during a federal court session in Great Falls on October 19, 2006,
before U.S. District Judge Sam E. Haddon, DESIREE DEAN KIRN LAMBERT, age 51,
and BERNARD JOHN LAMBERT, JR., age 58, residents of Busby, pled guilty. Sentencing
is set for February 5, 2007. They are currently released on special conditions.
DESIREE LAMBERT pled guilty to fraudulent claims, federal student loan/grant
fraud, and theft from an Indian tribal organization. BERNARD LAMBERT pled guilty
to conspiracy to defraud the United States.
In an Offer of Proof filed by the United States, the government stated it would
have proved at trial the following:
The Office of the Inspector General for the Department of the Interior received
information that DESIREE LAMBERT, Director of the Department of Education for
the Fort Peck Tribes, had criminally misapplied federal funds by authorizing
payments to her husband, BERNARD LAMBERT, ostensibly for writing grants on behalf
of the Fort Peck Department of Education.
Testimony would have been provided that from November of 2001 to December of
2002, DESIREE LAMBERT authorized four payments to BERNARD LAMBERT, who at that
time, was Superintendent of the Brockton School District. The four payments
totaled $12,000, which was payment for writing ten grant applications on behalf
of the Fort Peck Department of Education. The grant applications BERNARD LAMBERT
had been paid to write were for grants from various corporations and a 21st
Century Grant from the U.S. Department of Education (DOE). However, investigation
revealed through contact with the various corporations and the DOE, that none
of the grant applications that BERNARD LAMBERT had been paid to write were ever
received or funded.
DESIREE LAMBERT was interviewed and admitted that $8,500 of the $12,000 was
paid to her husband so that they could pay the college tuition for their daughter.
She stated that BERNARD LAMBERT wrote all of the grant applications for which
he was paid. DESIREE LAMBERT further stated that the Education Department did
not receive any of the grants for which BERNARD LAMBERT wrote applications.
She advised it was her responsibility to ensure the grant applications were
mailed to the appropriate entities. DESIREE LAMBERT also claimed to be in possession
of the diskette that BERNARD LAMBERT submitted that contained all of the grant
applications; however, the diskette was never provided to the Department of
Interior.
BERNARD LAMBERT was also interviewed and admitted that $8,500 of the $12,000
paid to him by his wife was so they could pay the college tuition for their
daughter. He also stated that he wrote all of the grant applications that he
was paid to write. He claimed he submitted all ten of the grant applications
on a single diskette to DESIREE LAMBERT in February or March of 2003. He further
stated he was still in possession of the diskette which contained all of the
grant applications. He repeatedly stated that he would provide this diskette
to the Department of Interior, but to date has not done so.
Further testimony would have shown that when DESIREE LAMBERT applied for financial
aid for college for her daughter, she submitted a tax return indicating that
she was the sole source of family income. However, at that time, BERNARD and
DESIREE were married, living together, and BERNARD was making approximately
$60,000 per year as the Superintendent of the Brockton School District. Testimony
would have also shown that the tax return which was submitted was false as BERNARD
and DESIREE LAMBERT did not file tax returns for that year or any other year.
Additional testimony would have been provided to show that DESIREE LAMBERT
gave her daughter a Department of Education cell phone and that over $900 in
charges for that phone was paid for by the Fort Peck Tribes.
DESIREE LAMBERT faces possible penalties of 5 years in prison, a $250,000 fine
and 3 years supervised release. BERNARD LAMBERT faces possible penalties of
10 years in prison, a $250,000 fine and 3 years supervised release.
Assistant U.S. Attorney Carl E. Rostad prosecuted the case for the United States.
The investigation was a cooperative effort between the Office of the Inspector
General for the Department of the Interior.
Top
Printable view
Share this page
Last Modified: 11/07/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov